   -   -   (   _   _   _       _           NAL'IONAL SCIENCE FOUNDATION
               .           ,                   ARLINGTON, VA 222-30




    O f f i c e of
Inspector G e n e r a l



MEMORANDUM
       DATE:                       October 11, 199
       FROM:                                             cia1 Agent, Investigation Section
       THRU :                                        , Investigation Section
 SUBJECT:                           Allegation that NSF employees                    and
                                                   were abusing       policies and doing
                                   private business on government time.
           TO:                     Case Pjivnber I94050025

In the spring of 1994, this office received an anollymous allegation




                                                     -
that NSF employe                     was signing in -
                                                    o       and then
proceeding to walk and exerciseJ around Ballston Commons Mall                                ,
without signing out. In addition, the allegation charged that NSF
employee                   was signing-in and signing-out other NSF
employees tor unauthorii)ed absences, using NSF office equipment to
conduct private business and using government time to work on her
private business.
Both Ms.           and Ms.        were interviewed. In addition,
                       office were reviewed. There appeared to be
no discrepancies and no wrongdoing on either one of their behalf.
Since there is no other evidence to substantiate the allegation, it
warrants no further investigation.
This case is closed.
